           AUDIT OF
 POLICY AND PROCEDURES FOR
LOCATING FEDERAL FACILITIES IN
         RURAL AREAS
      Department of Transportation

     Report Number: SC-2003-088
    Date Issued: September 26, 2003
           U.S. Department of
                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of Policy and Procedures for                  Date:    September 26, 2003
           Locating Federal Facilities in Rural Areas
           Department of Transportation
           SC-2003-088

  From:    Alexis M. Stefani                                        Reply to
                                                                    Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Assistant Secretary for Administration

           This report presents the results of our audit of the Department of Transportation’s
           (DOT) policy and procedures for locating Federal facilities in rural areas. Public
           Law 108-7, Consolidated Appropriations Resolution, 2003 Section 638, requires
           the Inspector General of each department or agency to submit to the Committees
           on Appropriations a report detailing what policies and procedures each department
           or agency has in place to give first priority to the location of new offices and other
           facilities in rural areas, as directed by the Rural Development Act of 1972. A
           copy of this report will be provided to the Committees on Appropriations.

           RESULTS IN BRIEF
           DOT has had a policy and procedures addressing the requirements of the Rural
           Development Act since 1988. These procedures require, in part, that DOT’s “site
           selection studies and reports and real property approval requests … shall include a
           discussion of the considerations that were given to rural area locations.” We
           reviewed the 49 new facilities DOT had acquired from March 1, 2002, through
           May 31, 2003, to determine whether the acquisitions were in compliance with the
           policy and procedures. Although 27 (55 percent) of the new DOT offices and
           facilities we reviewed were located in rural areas, only 3 of the 22 facilities
           located in urban areas had documentation specifically demonstrating that a rural
           location was considered.
                                                                                    2


BACKGROUND
The Rural Development Act of 1972 directs the heads of all executive departments
and agencies of the Federal Government to establish and maintain departmental
policies and procedures for giving first priority to locating new offices and other
facilities in rural areas. The Federal Management Regulation likewise states that
Federal agencies must give first priority for new facilities to rural areas “unless
their mission or program requirements call for locations in an urban area.” A rural
area is defined as a city, town, or unincorporated area that has a population of no
more than 50,000 inhabitants and is not immediately adjacent to a city of more
than 50,000 inhabitants.

As we reported to the Committees on Appropriations on May 28, 2002, DOT’s
policy and procedures addressing the requirements of the Rural Development Act
were issued in 1988 as DOT Order 4320.1A, “Location of New Federal Offices
and Other Facilities in Rural Areas.” The Order states that it is DOT’s policy to
give first priority to rural areas when locating new offices or other facilities where
personnel are assigned. It further states, “… site selection studies and reports and
real property approval requests … shall include a discussion of the considerations
that were given to rural area locations. If a rural location is not selected, the
reasons should be explained.”

In our May 2002 report to the Committees on Appropriations, we reported that
24 of 25 site acquisition files did not have documentation that demonstrated
compliance with the DOT Order or the Rural Development Act. We also reported
that the DOT Order did not provide guidance on any decisional criteria or factors
that should be considered during the planning and acquisition process, such as
cost-benefit analysis or the effect of relocation on the workforce. In response to
our 2002 report, the Office of the Secretary issued a memorandum, dated June 20,
2002, to the heads of DOT’s Operating Administrations reiterating the
requirement to document Rural Development Act considerations and clarifying
that decisional criteria referenced in DOT Order 1100.34A, “Facility Acquisition,
Expansion or Relocation,” are to be used in the site selection process.

OBJECTIVES, SCOPE AND METHODOLOGY
Our audit objectives were to determine whether DOT had a policy and procedures
in place to give first priority to the location of new offices or other facilities in
rural areas, as directed by the Rural Development Act of 1972, and whether DOT
adhered to the established policy and procedures. The audit covered new offices
or facilities DOT acquired through purchase or lease from March 1, 2002, through
May 31, 2003.
                                                                                     3


The property listings provided by DOT Operating Administrations identified
49 new offices or facilities acquired during our review period (see Exhibit A).
Twenty-seven of the new facilities were located in rural areas. We reviewed the
22 facilities that were located in urban areas to determine whether documentation
existed demonstrating that first priority was given to rural locations in accordance
with DOT policy. We performed a detailed review of the files located in
Washington, D.C., and at Federal Aviation Administration regional offices
throughout the country, for 20 sites acquired in urban areas. For the other
two sites, we asked that responsible representatives provide documentation
demonstrating that first priority was given to rural locations in accordance with
DOT policy.

We also interviewed DOT officials to follow up on our prior recommendations.
We performed the audit from June through August 2003 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

RESULTS
We found that DOT has made progress in complying with the requirements of the
Rural Development Act. DOT has had a policy and procedures addressing the
requirements of the Act since 1988, when it issued DOT Order 4320.1A,
“Location of New Federal Offices and Other Facilities in Rural Areas.” In
addition, during the period we reviewed, DOT met the objective of the Act by
locating 27 (55 percent) of its new facilities in rural areas.

However, of the 22 facilities located in urban areas, we found documentation that
the Operating Administrations had considered rural locations for only 3 facilities
(a Federal Aviation Administration aircraft certification office and 2 Federal
Motor Carrier Safety Administration safety offices). For the remaining 19 sites,
no documentation was provided that explicitly stated that a rural location was
considered or explained the reasons rural locations were not selected.

We acknowledge that the files for the 19 sites included some type of
documentation indicating that the sites were selected based on mission or program
requirements. However, none of these files contained evidence or documentation
referencing the requirements of DOT Order 4320.1A or the Rural Development
Act to consider rural locations. Stating that facilities are located at urban sites for
mission or program requirements does not negate the requirement to document
rural considerations.

DOT officials stated that documentation showing urban sites for mission or
program needs amounts to an explanation of why a rural location was not selected,
and that this is consistent with the Federal Management Regulations. We
                                                                                  4


recognize that the location of some facilities is dictated by the particular mission
or function of those facilities. For example, the two air traffic control towers we
reviewed clearly had to be located at the airports. However, the files of other
offices located in urban areas, such as the Office of Civil Rights or a hazardous
materials inspection office, clearly could benefit from documentation supporting
that consideration was given to rural areas. Without a specific statement or
document in the files supporting that consideration was given to a rural location,
the Operating Administrations are not complying with the DOT Order, and there is
no assurance of compliance with the Act.

Although 55 percent of DOT’s new facilities met the objective of the Rural
Development Act since they were located in rural areas, the problems we
identified with the lack of evidence or documentation for non-rural site selections
demonstrate a need for further action to ensure compliance with the DOT Order
and the Act. During our audit, Federal Aviation Administration began using a
checklist to document its efforts to give first consideration to locating new
facilities in rural areas. The checklist provided a choice of reasons for not
selecting a rural location. The reasons were related to mission requirements or
programmatic needs. We consider this a best practice and believe that DOT
should consider having all Operating Administrations use a checklist or other
standardized documentation to ensure compliance with the DOT Order and the
Rural Development Act.

RECOMMENDATION
We recommend that the Assistant Secretary for Administration work with the
Operating Administrators to implement a checklist or some other best practice to
ensure compliance with DOT Order 4320.1A and the Rural Development Act
when new facilities are not located in rural areas.

MANAGEMENT COMMENTS AND OIG RESPONSE
A draft of this report was provided to the Assistant Secretary for Administration
on September 8, 2003. On September 17, 2003, the Assistant Secretary for
Administration provided written comments and concurred with our
recommendation. The complete text of the Assistant Secretary’s comments is in
the Appendix.

In concurring with the recommendation, the Assistant Secretary agreed to work
with the Operating Administrations to encourage the use of a checklist or similar
tool to provide an explicit statement in the acquisition files that the Rural
Development Act was considered in the facility siting process. The Assistant
Secretary anticipates that this action will be completed by December 31, 2003.
The Assistant Secretary also commented that the General Accounting Office had
                                                                                  5


recently identified DOT as the agency with the most complete Rural Development
Act policy among agencies it reviewed.

The action planned by DOT is reasonable. Therefore, our recommendation is
resolved, subject to follow-up requirements in DOT Order 8000.1C.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1992 or Robin K. Hunt, Deputy Assistant Inspector
General for Hazardous Materials, Security, and Special Programs, at
(415) 744-3090.

                                         #
                                                                                                  6




       EXHIBIT A. DOT’S NEW BUILDINGS AND FACILITIES
                               MARCH 1, 2002 – MAY 31, 2003
                                                                                                  Urban
                                                                                  Property
                    Property Name                    Predominant Use                                or
                                                                                  Location
                                                                                                  Rural
Office of the Secretary
                                                                              Dallas/
   1    Civil Rights Regional Office             Office Space                                TX   Urban
                                                                              Fort Worth
                                                                              College
   2    Civil Rights Regional Office             Office Space                                GA   Rural
                                                                              Park
Federal Aviation Administration
      Springfield-Branson Regional Airport
   3                                             Air Traffic Control Tower    Springfield    MO   Urban
      ATCT
                                                                              Corpus
   4    Corpus Christi Airport ATCT              Air Traffic Control Tower                   TX   Urban
                                                                              Christi
                                                                              Tiyan,
   5    Agana Airport SSC                        System Support Center                       GU   Urban
                                                                              Guam
        Northern California Terminal Radar
   6                                             Technical Facility           Mather         CA   Urban
        Approach Control
        Combined Center, Radar Approach
   7                                             Technical Facility           Honolulu       HI   Urban
        Control
   8    Wichita Airport SMO                      System Management Office     Wichita        KS   Urban
   9    Dulles Air Traffic Evaluation Office     Headquarters Office          Sterling       VA   Urban
  10    Flight Standards District Office         Administrative Office        Lexington      MA   Urban
                                                 Aircraft Certification
  11    Aircraft Certification Office *                                       Renton         WA   Urban
                                                 Inspections
                                                 Hazardous Materials
  12    Hazardous Material Office                                             Louisville     KY   Urban
                                                 Inspections
                                                 Hazardous Materials
  13    Hazardous Material Office                                             Pensacola      FL   Urban
                                                 Inspections
                                                 Central Weather
  14    Jacksonville International Airport CWO                                Jacksonville   FL   Urban
                                                 Observatory
        Flight Standards District Office /
  15                                             Administrative Office        Fort Worth     TX   Urban
        International Field Office
                                                 Dept. of Homeland Security
  16    Civil Aviation Security Field Unit                                    Carson City    NV   Urban
                                                 Office
        Washington Headquarters for              Telecommunications
  17                                                                          Washington     DC   Urban
        Telecommunications                       Operations
                                                 Contract Proposal
  18    Washington Office Center                                              Washington     DC   Urban
                                                 Evaluations
  19 Sector Field Office                         System Support Center        Greenwood      MS   Rural
Federal Railroad Administration
  20 Office of Safety                            Safety Inspection Office     Fort Worth     TX   Urban
  21 Office of Safety                            Safety Inspection Office     Ontario        CA   Urban
  22 Charlotte, NC Field Office                  Safety Inspection Office     Charlotte      NC   Urban

* Site selection file documented rural consideration




       Exhibit A. DOT’S New Buildings and Facilities
                                                                                         7



                                                                                          Urban
                 Property Name                     Predominant Use   Property Location
                                                                                         or Rural
Federal Motor Carrier Safety
Administration
     San Diego Motor Carrier Safety
 23                                           Inspection/Auditing    San Diego     CA    Urban
     Office *
     San Juan Motor Carrier Safety            Investigations/State
 24                                                                  San Juan      PR    Urban
     Office *                                 Programs
 25 Columbus Motor Carrier Safety Office      Inspection/Auditing    Columbus      NM     Rural
 26 Douglas Motor Carrier Safety Office       Inspection/Auditing    Douglas       AZ     Rural
 27 Naco Motor Carrier Safety Office          Inspection/Auditing    Naco          AZ     Rural
 28 Nogales Motor Carrier Safety Office       Inspection/Auditing    Nogales       AZ     Rural
 29 San Luis Motor Carrier Safety Office      Inspection/Auditing    San Luis      AZ     Rural
 30 Calexico Motor Carrier Safety Office      Inspection/Auditing    Calexico      CA     Rural
 31 Tecate Motor Carrier Safety Office        Inspection/Auditing    Tecate        CA     Rural
 32 Brownsville Motor Carrier Safety Office   Inspection             Brownsville   TX     Rural
 33 Brownsville Motor Carrier Safety Office   Auditing               Brownsville   TX     Rural
     El Paso (Bota) Motor Carrier Safety
 34                                           Inspection/Auditing    El Paso       TX     Rural
     Office
     Laredo (Columbia) Motor Carrier Safety
 35                                           Inspection/Auditing    Laredo        TX     Rural
     Office – Inspections
 36 Del Rio Motor Carrier Safety Office       Inspection/Auditing    Del Rio       TX     Rural
 37 Eagle Pass Motor Carrier Safety Office    Auditing               Eagle Pass    TX     Rural
 38 Eagle Pass Motor Carrier Safety Office    Inspection             Eagle Pass    TX     Rural
 39 El Paso Motor Carrier Safety Office       Inspection/Auditing    El Paso       TX     Rural
     Laredo (Walker Plaza) Motor Carrier
 40                                           Auditing               Laredo        TX     Rural
     Safety Office – Auditing
 41 Los Indios Motor Carrier Safety Office    Inspection/Auditing    Los Indios    TX     Rural
 42 McAllen Motor Carrier Safety Office       Inspection/Auditing    McAllen       TX     Rural
 43 Pharr Motor Carrier Safety Office         Inspection/Auditing    Pharr         TX     Rural
 44 Presidio Motor Carrier Safety Office      Inspection/Auditing    Presidio      TX     Rural
 45 Progreso Motor Carrier Safety Office      Inspection/Auditing    Progreso      TX     Rural
     Rio Grande City Motor Carrier Safety                            Rio Grande
 46                                           Inspection/Auditing                  TX     Rural
     Office                                                          City
 47 Roma Motor Carrier Safety Office          Inspection/Auditing    Roma          TX     Rural
     Laredo (World Trade Bridge) Motor
 48                                           Inspection/Auditing    Laredo        TX     Rural
     Carrier Safety Office
     El Paso (Ysleta) Motor Carrier Safety
 49                                           Inspection/Auditing    El Paso       TX     Rural
     Office
                   SUMMARY
                                                                     Urban:                  22
                                                                     Rural:                  27
                                                                     Total                   49

* Site selection file documented rural consideration




    Exhibit A. DOT’S New Buildings and Facilities
                                                           8



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT


  THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

     Glenn Griser                       Program Director
     Leroy Davis                        Project Manager
     Jeffery Mortensen                  Lead Auditor
     Debbie Kloppenberg                 Auditor
     Shirley Murphy                     Writer/Editor




Exhibit B. Major Contributors to This Report
                                                                                                          9
           APPENDIX. MANAGEMENT COMMENTS
                                                                       Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
Subject:
           ACTION: Comments on Office of Inspector General Draft
           Report, “Audit of Policy and Procedures for Locating                Date:    SEP 17 2003
           Federal Facilities in Rural Areas”


  From:
           Vincent T. Taylor                                                Reply to
           Assistant Secretary for Administration                           Attn. of:



    To:    Alexis M. Stefani
           Principal Assistant Inspector General
            for Auditing and Evaluation

           The Department appreciates this opportunity to offer comments on the Office of Inspector
           General (OIG) draft report. Overall, we concur with the recommendation and will work with
           the operating administrations to encourage the use of a checklist or similar tool to provide an
           explicit statement for file that the RDA was considered in the facility siting process. We are
           pleased that the report acknowledges long-standing Department of Transportation (DOT)
           policy and procedures for the Rural Development Act (RDA). In recent testimony the
           General Accounting Office (GAO) cited DOT as the agency with the most complete RDA
           policy among agencies it has reviewed. We are also pleased that the OIG draft report’s
           findings acknowledge that: 1) of 49 acquisitions during the review period, 27 or 55 percent
           were in rural areas; 2) of the remaining 22 acquisitions in urban areas, three had
           documentation that explicitly discussed rural considerations; and 3) the remaining 19
           acquisitions in urban areas included some type of documentation indicating that the sites
           were selected based on mission or program requirements.

           These findings demonstrate substantial compliance with the RDA requirements and the
           Federal Management Regulation (FMR) 102-83.65, which provides the Federal
           government’s primary implementing guidance for RDA. The RDA requires that Federal
           agencies establish and maintain policies and procedures for giving first priority to locating
           new offices and other facilities in rural areas. The OIG found that DOT has had such policies
           and procedures since 1988. The FMR states that executive agencies are required to give first
           priority to the location of new offices and other facilities in rural areas, unless their mission
           or program requirements call for locations in urban areas. Accordingly, the Department has
           stated that if an acquisition file contains site selection documentation for an urban site to
           meet mission or program needs, then this amounts to an explanation of why a rural site was
           not selected. Given the finding that the files for the 19 urban sites had some type of
           documentation indicating site selection was based on mission or program requirements, the
           Department believes the reasons for not selecting a rural location are apparent.

           Regardless of the whether or not an explicit mention of RDA was present in the site selection
           folders, each of the facilities OIG examined were located as necessary to fulfill mission or
           Appendix. Management Comments
                                                                                               10
2
program requirements. The 19 facilities in urban areas include one Civil Rights Office that
requires proximity to clients, and three Federal Railroad Administration (FRA) safety
inspection offices that serve geographical areas. Two of the FRA inspection offices are
collocated with other DOT components as part of a Secretarial initiative for seamless
customer service. The remaining 15 are Federal Aviation Administration (FAA) facilities
including one 218 square foot office acquired by FAA and since transferred to Homeland
Security, two offices with a requirement to be located near FAA Headquarters in
Washington, D.C., and 12 facilities located on or near airports in urban areas. Six of the 12
facilities located on airports include two air traffic control towers, two systems
support/management centers, an administrative office that performs evaluations at airports,
and a central weather observatory. The remaining six FAA facilities near airports include
two terminal radar approach control facilities, two flight standards district offices, which
house FAA aviation safety inspectors, and two hazardous materials inspection offices that
inspect materials at airports and respond to hazmat emergencies. Many of the 19 facilities in
the report are under 5,000 square feet and not likely to have a significant economic impact in
rural or urban areas.

Finally, we acknowledge the OIG’s concern regarding RDA documentation, particularly in
those cases in which a siting justification demonstrating a need for an urban location does not
explicitly link that rationale with the reason that a rural site was not selected. As a result, we
are willing to work with the operating administrations to encourage the use of checklists or
other best practices in an effort to provide an explicit statement of RDA consideration in the
site location files.

Recommendation: The Assistant Secretary for Administration should work with the
operating administrations to implement a checklist or some other best practice to ensure
compliance with DOT Order 4320.1A and the Rural Development Act when new facilities
are not located in rural areas.

Response: Concur. The Assistant Secretary for Administration will work with the operating
administrations to encourage the use of a checklist or similar tool to provide an explicit
statement for file that the RDA was considered in the facility siting process.




Appendix. Management Comments
